<html>
<title> - H.R. 50</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                                H.R. 50

=======================================================================

                         COMPILATION OF MARKUPS

                               BEFORE THE

                          COMMITTEE ON SCIENCE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 31, 2006

                               __________

                           Serial No. 109-67

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
31-026                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee, RMM*
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
RALPH M. HALL, Texas                 MICHAEL M. HONDA, California
CURT WELDON, Pennsylvania            LYNN C. WOOLSEY, California
ROSCOE G. BARTLETT, Maryland         LINCOLN DAVIS, Tennessee
VERNON J. EHLERS, Michigan           JERRY F. COSTELLO, Illinois
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
JO BONNER, Alabama                   DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              JIM MATHESON, Utah
BOB INGLIS, South Carolina           SHEILA JACKSON LEE, Texas
DAVE G. REICHERT, Washington         BRAD SHERMAN, California
MICHAEL E. SODREL, Indiana           AL GREEN, Texas
JOHN J.H. ``JOE'' SCHWARZ, Michigan      
+SHERWOOD L. BOEHLERT, New York      +BART GORDON, Tennessee
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
JUDY BIGGERT, Illinois               BRAD MILLER, North Carolina
WAYNE T. GILCHREST, Maryland         MARK UDALL, Colorado
TIMOTHY V. JOHNSON, Illinois         LINCOLN DAVIS, Tennessee
DAVE G. REICHERT, Washington         BRIAN BAIRD, Washington
JOHN J.H. ``JOE'' SCHWARZ, Michigan  JIM MATHESON, Utah
MARIO DIAZ-BALART, Florida               
+SHERWOOD L. BOEHLERT, New York      +BART GORDON, Tennessee
                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                DARLENE HOOLEY, Oregon
CURT WELDON, Pennsylvania            DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         BRIAN BAIRD, Washington
GIL GUTKNECHT, Minnesota             CHARLIE MELANCON, Louisiana
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
DAVE G. REICHERT, Washington         DORIS MATSUI, California
MICHAEL E. SODREL, Indiana           VACANCY
MICHAEL T. MCCAUL, Texas                 
VACANCY                                  
+SHERWOOD L. BOEHLERT, New York      +BART GORDON, Tennessee
                                 ------                                

                 Subcommittee on Space and Aeronautics

                   KEN CALVERT, California, Chairman
RALPH M. HALL, Texas                 MARK UDALL, Colorado
LAMAR S. SMITH, Texas                DAVID WU, Oregon
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   JIM COSTA, California
TOM FEENEY, Florida                  AL GREEN, Texas
MICHAEL T. MCCAUL, Texas             CHARLIE MELANCON, Louisiana
MARIO DIAZ-BALART, Florida               
+SHERWOOD L. BOEHLERT, New York      +BART GORDON, Tennessee

* LRanking Minority Member appointments/Full Committee and 
Subcommittee assignments.
** LVice Chair appointments/Full Committee and Subcommittee 
assignments.
+ LThe Chairman and Ranking Minority Member shall serve as Ex-
officio Members of all Subcommittees and shall have the right 
to vote and be counted as part of the quorum and ratios on all 
matters before the Subcommittees.


                            C O N T E N T S

                                  2005

                                                                   Page
H.R. 50--National Oceanic and Atmospheric Administration Act.....
    Proceedings of the markup held by the Subcommittee on 
      Environment, Technology, and Standards, March 15, 2005.....     1

    Proceedings of the markup held by the Full Committee, May 17, 
      2005.......................................................    43


     PROCEEDINGS OF THE MARKUP BY THE SUBCOMMITTEE ON ENVIRONMENT, 
TECHNOLOGY, AND STANDARDS ON H.R. 50, NATIONAL OCEANIC AND ATMOSPHERIC 
                           ADMINISTRATION ACT

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:04 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon 
Ehlers [Chairman of the Subcommittee] presiding.
    Chairman Ehlers. Good afternoon. I am pleased to welcome 
you to the first--Subcommittee's first markup of the year. 
Pursuant to notice, we will consider three important measures 
today that together underlie the breadth of jurisdiction of the 
subcommittee. Given the number of bills we need to get through 
today, my opening statement will be brief, and then I will 
explain each bill in more detail as it is brought up.
    First we will consider H.R. 50, the National Oceanic and 
Atmospheric Administration Act. This bill, a reintroduction of 
legislation I authored last Congress, would created an organic 
act for NOAA. This is a term that puzzled me when I first got 
here because, to me, organic had something to do with organic 
chemistry or organic gardening or organic food stores; but an 
organic act in the Congress is an act which is an original act 
establishing an agency and outlining its functions and 
purposes. This organic act for NOAA would provide the 
underlying statute of missions and functions to be carried out 
by NOAA, something that has not existed since the agency was 
formed by executive order in 1970--established by executive 
order. It has been modified by executive order and by law 
since, but we have never had an organic act, so today we are 
trying to remedy that.
    Next, we will consider H.R. 250, the Manufacturing 
Technology Competitiveness Act. This bill is nearly identical 
to legislation I introduced last Congress and which passed the 
House last July. Unfortunately, the bill did not receive action 
in the Senate, and so we are proposing it once again.
    The main focus of the bill is an authorization for the 
Department of Commerce Manufacturing Extension Partnership 
Program.
    And finally, we will consider H.R. 798, the Methamphetamine 
Remediation Research Act. This bill, introduced by Ranking 
Member Gordon, Representative Calvert, and Chairman Boehlert, 
would create a research program at the Environmental Protection 
Agency to study the harmful effects of methamphetamine and to 
provide important voluntary guidelines for states to use as 
they try to clean up former meth laboratories. I suspect many 
people are not aware of the extent of this problem and the 
dangers involved, but meth labs are springing up, primarily in 
rural areas, particularly wooded areas--and I know Oregon is 
having considerable problems with them; we have in Michigan as 
well because both states have substantial wooded areas where 
you can conceal a shack and try to manufacture methamphetamine.
    There are several aspects of danger there. One is that very 
frequently, because of the danger of the components--and in 
fact, the explosive nature of the components--frequently an 
explosion occurs, which obliterates the shack and the people 
within it, so we lose a number of young people every year who 
are engaged in this dangerous pursuit. Even more frequently, 
they use a particular structure for this; it becomes very--it 
collects a lot of toxic materials because there is a great deal 
of toxic material going into the production of methamphetamine. 
They actually become not quite superfund sites, but pretty 
close to it, and local governments are having a great deal of 
trouble cleaning them up to a reasonable standard, and the 
expense is substantial for small units of government.
    Now, I am pleased that Mr. Wu has introduced this bill, 
which will deal with this problem, not only in Oregon and 
Michigan, but throughout the country. With that, I am proud to 
introduce Mr. Wu from Oregon, the Subcommittee's new Ranking 
Member. I have worked before with Mr. Wu on a number of issues. 
I know he has a strong interest and considerable experience in 
the issues before the Subcommittee. I am very happy that he has 
joined us in this position.
    I want to thank Mr. Udall. He is on the way but not here 
yet. I want to thank Mr. Udall from Colorado, who was a Ranking 
Member for the past four years. We had a very productive 
relationship, and now he is Ranking Member of the Space 
Subcommittee, where spacey Members end up. And I am sorry to 
lose him for that purpose, but delighted that Mr. Wu is his 
replacement. I am pleased that Mr. Udall will continue to be a 
Member of the Subcommittee.
    I am now pleased to yield to Mr. Wu for an opening 
statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good afternoon! Welcome to the Subcommittee's first markup of the 
year. Pursuant to notice, we will consider three important measures 
today that together underlie the breadth of jurisdiction of the 
Subcommittee. Given the number of bills we need to get through today, 
my opening statement will be brief and then I will explain each bill in 
more detail as it is brought up.
    First, we will consider H.R. 50, the National Oceanic and 
Atmospheric Administration (NOAA) Act. This bill, a reintroduction of 
legislation I authored last Congress, would create an ``organic act'' 
for NOAA. This organic act would provide the underlying statute of 
missions and functions to be carried out by the NOAA, something that 
has not existed since the agency was formed by executive order in 1970.
    Next, we will consider H.R. 250, the Manufacturing Technology 
Competitiveness Act. This bill is nearly identical to legislation I 
introduced last Congress, and which passed the House last July. The 
main focus of the bill is an authorization for the Department of 
Commerce's Manufacturing Extension Partnership (MEP) program.
    And finally, we will consider H.R. 798, the Methamphetamine 
Remediation Research Act. This bill, introduced by Ranking Member 
Gordon, Representative Calvert and Chairman Boehlert, would create a 
research program at the Environmental Protection Agency (EPA) to study 
the harmful effects of methamphetamine and provide important voluntary 
guidelines for states to use as they try to clean up former ``meth'' 
laboratories.
    I am proud to introduce Mr. Wu from Oregon, the Subcommittee's new 
Ranking Member. I know that Mr. Wu has a strong interest and 
considerable experience in the issues before the Subcommittee, and I am 
very happy that he has joined us. I want to thank Mr. Udall, from 
Colorado, who was our Ranking Member for the past four years. We had a 
very productive relationship and now he is the Ranking Member of our 
Space Subcommittee. I am pleased he will still be a Member of our 
subcommittee.
    I now yield to Mr. Wu for an opening statement.

    Mr. Wu. Thank you very much, Mr. Chairman. And I look 
forward to working with you in a very productive relationship 
concerning the broad range of this subcommittee's jurisdiction 
in technology transfer, competitiveness, and other crucial 
issues for our research, our tech transfer, and our economy. 
And in your spirit, Mr. Chairman, I will be brief, even 
laconic. I am very pleased to be here with you to participate 
in our subcommittee's first markup, markup of the NOAA Organic 
Act, the Manufacturing Technology Competitiveness Act, and the 
Methamphetamine Remediation Research Act. And with that, Mr. 
Chairman, I yield back the balance of my time.
    Chairman Ehlers. I thank the gentleman and would just 
correct myself. I mentioned this was your bill; it is actually 
Mr. Gordon's bill, joined with the methamphetamine. But it is 
certainly a bill which is worthy of your attention.
    Mister--without object, all Members--all other Members may 
place statements in the records, and I ask unanimous consent to 
recess the Subcommittee at any point, and without objection it 
is so ordered; I hear no objection.
    We will now consider the bill H.R. 50, the National Oceanic 
and Atmospheric Administration Act. This bill is identical to 
the legislation that I introduced last year and that passed the 
Subcommittee at the end of the Congressional session. 
Unfortunately, time ran out before we could consider it at Full 
Committee. H.R. 50 provides NOAA with an organic act. An 
organic act defines the overall missions and functions of an 
agency. As an example, H.R. 50 states that the mission of NOAA 
is, first, to understand and predict changes in the Earth's 
oceans and atmosphere; second, to conserve and manage coastal, 
ocean, and great lakes ecosystems; and third, to educate the 
public about these topics. The bill also describes the specific 
functions NOAA should carry out to fulfill its mission, such as 
issuing weather forecasts and warnings.
    I should note that H.R. 50 contains very little language 
about fisheries or research management at NOAA because those 
topics are under the jurisdiction of the Resources Committee, 
and particularly the Subcommittee chaired by my colleague from 
Maryland, Mr. Gilchrest, who is also, now, a Member of this 
committee. I look forward to working with Mr. Gilchrest, my 
other colleagues, and the administration, as well as with the 
full Resources Committee, to pass truly comprehensive 
legislation for NOAA.
    I am pleased to recognize Mr. Wu if he wishes to make any 
comments about this bill.
    Mr. Wu. Thank you, Mr. Chairman. I fully support your 
interest in moving forward to develop legislation that will 
provide NOAA with a statutory foundation to guide its missions 
and functions. I congratulate you for introducing H.R. 50.
    NOAA is this nation's lead agency charged with conserving 
and managing our coastal and oceanic resources. NOAA also plays 
a vital role in public safety through the programs of the 
National Weather Service to issue weather forecasts and 
warnings. We must ensure that NOAA has the resources and 
authorities it needs to meet its statutory responsibilities and 
to accomplish its resource management and public safety 
missions.
    H.R. 50 makes a good start on this effort, and I look 
forward to working with you further before this legislation is 
considered by the full House. And I might add that I also look 
forward to working with you and Mr. Gilchrest to have a more 
robust component with respect to fisheries, which are of great 
interest to us on either coast, and I assume, also, in the 
Great Lakes.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    Good afternoon, everyone. Mr. Chairman, I am pleased to be here 
this afternoon to participate in our subcommittee's first markup of 
legislation. I realize your interest in moving forward to develop 
legislation that will provide NOAA with the statutory foundation to 
guide its missions and functions. I congratulate you for introducing 
H.R. 50.
    NOAA is this nation's lead agency charged with conserving and 
managing our coastal and oceanic resources. NOAA also plays a vital 
role in public safety through the programs of the National Weather 
Service to issue weather forecasts and warnings.
    We must ensure that NOAA has the resources and authorities it needs 
to meet its statutory responsibilities and to accomplish its resource 
management and public safety missions.
    H.R. 50 makes a good start on this effort, and I look forward to 
working with you further before this legislation is considered by the 
Full Science Committee.

    Chairman Ehlers. I thank you for your comments, and let me 
just note the presence of Mr. Udall. Mr. Udall, I paid you 
several compliments in your absence. I won't repeat them, but I 
expressed my appreciation for your good service as Ranking 
Member of this subcommittee. We will miss you, and I am happy 
that you are going to continue to be on the Subcommittee.
    Mr. Udall. Thank you, Mr. Chairman. In the spirit of the 
old adage, you never get in trouble for something you didn't 
say. I would just say I think probably those compliments are 
undeserved, and I do look forward to working with you as a 
Member of the Committee, and with Ranking Member Wu. Thank you.
    Chairman Ehlers. I thank the gentleman for his comments, 
and I disagree with him; they are deserved.
    I ask unanimous consent that the bill is considered as read 
and open to amendment at any point and that the Members proceed 
with the amendments in the order of the roster. Without 
objection, so ordered.
    The first amendment on the roster is an en bloc amendment 
offered by Mr. Wu. Are you ready to proceed with your 
amendment?
    Mr. Wu. Yes, Mr. Chairman. I have amendment at the desk.
    Chairman Ehlers. The Clerk will report the amendment.
    The Clerk. Amendment to H.R. 50 offered by Mr. Wu of 
Oregon.
    Chairman Ehlers. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    Mr. Wu. My amendment, Mr. Chairman, does three things. The 
first part of my amendment clarifies current policy of having 
the National Weather Service serve as the Nation's source for 
issuing forecasts and warnings. The public safety function 
performed by the National Weather Service should not be 
contracted to outside providers. There are numerous commercial 
weather providers that also have an important role to play in 
weather forecasting. They and the National Weather Service have 
developed a productive partnership that serves our nation well. 
This language ensures that it will continue to do so.
    The second part of my amendment ensures the continuance of 
the agreements between NOAA and its established employee 
organization. The final part of my amendment requires NOAA to 
engage the agency's client base, this Congress, and their own 
employees in the development of any organizational changes.
    NOAA partners include State and local governments, 
commercial interests in recreation, fishing, navigation, and 
weather forecasting, the research and education communities, 
and conservation organizations. NOAA reorganizations should not 
occur without the involvement of the many organizations that 
work with NOAA.
    Mr. Chairman, I understand that you will be supporting my 
amendment. I yield back.
    Chairman Ehlers. I thank Mr. Wu for working with us on his 
amendment. It is a worthy amendment. I believe it strengthens 
the bill, and the Chair is pleased to support this amendment.
    Is there any further discussion on this amendment? None?
    Mr. Udall. Mr. Chairman, I move to strike the last word.
    Chairman Ehlers. The gentleman may proceed for five 
minutes.
    Mr. Udall. Mr. Chairman, in the interest of moving the 
legislation forward, I don't have an amendment, but I would 
like clarification on an issue of concern to me, and I believe 
to all of the Members of the Committee. The mission we are 
defining for NOAA is a broad one, and I certainly agree that 
NOAA's mission should be defined broadly to include the many 
important operation and research functions it performs for our 
nation. However, I am concerned about the potential for overlap 
with NASA's mission. And as you know, reports have surfaced at 
various times, indicating the possibility that NASA's Earth 
science programs might be transferred to NOAA. And I was 
curious if it was your intention to endorse or facilitate that 
type of transfer through this legislation.
    Chairman Ehlers.--with your comment.
    Mr. Udall. I would be happy to yield to the----
    Chairman Ehlers. I thank gentleman for yielding.
    There is no intent in this bill to favor that one way or 
the other and no plans to do any such thing. It is true there 
is overlap between NOAA and NASA. There is also overlap between 
NOAA and the armed services with the new satellite program. And 
I think--my personal opinion is that there is going to have to 
be much greater effort made in NOAA--and I hope it will occur 
under this bill--to work more closely with other agencies with 
which they have joint interests. And that, of course, includes 
NASA as well as the armed forces and perhaps other government 
agencies, perhaps the Department of Interior as an example. So 
my hope is that operating under an organic act, it will be 
easier for them to develop interagency agreements to deal with 
these issues. At this point, it has been pretty much on an ad 
hoc basis, as far as I can see, particularly with the satellite 
program.
    So there is no ulterior motive in the bill to deal with 
this, and so far as I know, nothing in the bill would encourage 
that sort of thing. But it would be something that we would be 
involved in judging on a case-by-case basis, as they present.
    Mr. Udall. I thank the Chairman. And reclaiming my time, if 
I could ask just one follow-on question?
    I understand we are planning a hearing on NASA's Earth 
sciences program in the near future, and it would be my hope 
that--and this is the thrust of my question--we would have that 
hearing before we markup H.R. 50 in the Full Committee. And I 
would be happy to yield to the gentleman again.
    Chairman Ehlers. I assume that hearing would be on the 
Space Subcommittee rather than this subcommittee, so I would 
suggest that since you are on that committee that you make that 
request known to the Chairman. I would not want to hold up H.R. 
50 at any point, but if that Subcommittee wishes to conduct 
such a hearing early on, that would be most helpful.
    Mr. Udall. Reclaiming my time, I hear the gentleman 
suggesting that he would be amenable to the Space Subcommittee 
taking a look at that this, but you don't want to slow down the 
process that H.R. 50----
    Chairman Ehlers. The gentleman is correct, and that is 
based on consideration of how rapidly or not rapidly bills tend 
to move through Committee--through the House, through the 
Senate, and I want to make certain that this gets passed during 
this Congress and preferably this year if at all possible. But 
I would be happy to work with the Chair of the Space 
Subcommittee on a joint hearing if he would wish to do it.
    Mr. Udall. That seems to be the general thrust here, and I 
will talk to Chairman Calvert as well, and I look forward to 
working with you, and we will prove, Mr. Chairman, Ross Perot 
wrong where he said a committee is a cul-de-sac down which 
great ideas go to die. So we have, I think a bigger load to 
shoulder here when it comes to proving Mr. Perot wrong.
    Chairman Ehlers. Well, you also have to remember that was a 
goal of the founders of this nation, to make a structure so 
complicated that very few things would pass, assuming that only 
the best would survive. But since this bill is so superb, we 
are not worried about what the process might do to it.
    Any further comments on the amendment? Hearing none, the 
vote occurs on the amendment. All in favor, say aye. Those 
opposed say no. The yeas have it, and the amendment is agreed 
to.
    Are there any other amendments? Hearing none, the question 
is on the bill. H.R. 50, National Oceanic and Atmospheric 
Administration Act, as amended--all those in favor will say 
aye. All those opposed will say no. In the opinion of the 
Chair, the ayes have it.
    I will now recognize Mr. Wu for a motion.
    Mr. Wu. Thank you, Mr. Chairman. Mr. Chairman, I move that 
the Subcommittee favorably report the bill H.R. 50, as amended, 
to the Full Committee. Further, I ask unanimous consent that 
the staff be instructed to make all necessary technical and 
conforming changes to the bill as amended, in accordance with 
the recommendations of the Subcommittee.
    Chairman Ehlers. The question is on the motion to report 
the bill as amended favorably. Those in favor of the motion 
will signify by saying aye. Opposed, no. The motion carries, 
and the bill favorably reported. Without object, the motion to 
reconsider is laid upon the table.
    I thank the Committee very much.
    Without objection, the motion to reconsider is laid upon 
the table. I wish to express my appreciation to all of the 
Members of the Committee for the rapid action on this group of 
bills and the good spirit in which we have all approached these 
bills and trying to improve them. So I appreciate your 
consideration. I thank the Committee Members for their 
attendance. This concludes our subcommittee markup.
    [Whereupon, at 1:46 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


         H.R. 50, Section-by-Section Analysis, Amendment Roster


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Section-by-Section Analysis of H.R. 50,
          National Oceanic and Atmospheric Administration Act

Section 1. Short Title.

    The short title of this Act is the ``National Oceanic and 
Atmospheric Administration Act.''

Section 2. Definitions.

    Defines terms used in the Act.

Section 3. National Oceanic and Atmospheric Administration.

    Establishes the National Oceanic and Atmospheric Administration 
(NOAA) within the Department of Commerce and describes the mission and 
functions of NOAA.

Section 4. Administration Leadership.

    Describes the leadership structure of NOAA, including a new 
position of a Deputy Assistant Secretary for Science, Technology, 
Education and Outreach, who shall be responsible for coordinating and 
managing all research activities across the agency, and must be a 
career position. Also, this section designates the Deputy Under 
Secretary for Oceans and Atmosphere as the Chief Operating Officer of 
the Administration, responsible for the day-to-day aspects of the 
Administration's operations and management.

Section 5. National Weather Service.

    Directs the Secretary of Commerce to maintain a National Weather 
Service within NOAA.

Section 6. Operations and Services.

    Directs the Secretary to maintain programs within NOAA to support 
operational and service functions. These functions would include all 
the activities of NOAA's National Environmental Satellite Data and 
Information Service (NESDIS) and the mapping and charting activities of 
the National Ocean Service.

Section 7. Research and Education.

    Directs the Secretary to maintain programs within NOAA to conduct 
and support research and education functions.

Section 8. Science Advisory Board.

    Establishes a Science Advisory Board for NOAA, which would provide 
scientific advice to the Administrator and to Congress on issues 
affecting NOAA.

Section 9. Reports.

    Requires two reports from the Secretary. Each report is to be 
delivered to Congress within 18 months of the date of enactment of the 
Act. One report should assess the adequacy of the environmental data 
and information systems of NOAA and provide a strategic plan to address 
any deficiencies in those systems. The other report must provide a 
strategic plan for research at NOAA. The National Academy of Sciences 
(NAS) shall review each report prior to delivery to Congress.

Section 10. Effect of Reorganization Plan.

    Repeals the Executive Order that established NOAA in 1970.

Section 11. Savings Provision.

    Provides that all rules and regulations, and other technical legal 
topics that were previously assigned to the Administration, remain in 
effect under this Act.

Section 12. Transition.

    Makes the effective date of the Act two years after the date of 
enactment and requires NOAA to reorganize around the themes outlined in 
sections five through seven.

Section 13. Facility Evaluation Process.

    Provides that NOAA cannot expend funds to close or transfer a 
facility without a 60-day public comment period, 90 days notification 
to Congress, review by the Science Advisory Board (if appropriate), 
preparation of anticipated costs and savings, and preparation of a 
statement of the impacts of the facility change on NOAA and its part

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 PROCEEDINGS OF THE FULL COMMITTEE MARKUP ON H.R. 50, NATIONAL OCEANIC 
                   AND ATMOSPHERIC ADMINISTRATION ACT

                              ----------                              


                         TUESDAY, MAY 17, 2005

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:08 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
    Chairman Boehlert. I want to welcome everyone here today 
for this markup of bills concerning the heavens and the Earth 
and to the agencies that explore them, NOAA and NASA.
    Now let me just say this before I give you the rest of this 
wonderful statement.
    The Committee on Science will come to order. Pursuant to 
notice, the Committee on Science meets to consider the 
following measures: H.R. 50, National Oceanic and Atmospheric 
Administration Act; H.R. 2363, To establish a Science and 
Technology Scholarship Program to award scholarships to recruit 
and prepare students for careers in the National Weather 
Service and in the National Oceanic and Atmospheric 
Administration marine research, atmospheric research, and 
satellite programs; H.R. 426, Remote Sensing Applications Act 
of 2005, and H.R. 1022, the George E. Brown, Jr. Near-Earth 
Object Survey Act.
    I ask unanimous consent for the authority to recess the 
Committee at any point during consideration of these matters, 
and without objection, it is so ordered.
    We will now proceed with the markup beginning with the 
opening statements, and I will continue mine.
    The main bill before us today is the NOAA Organic Act 
introduced by Dr. Ehlers, which we had initially planned to 
markup last week. This bill will give NOAA a firm legislative 
grounding, something that was called for by the Ocean 
Commission, among others. The Administration has also called 
for an Organic Act for NOAA.
    But our bill will do more than merely found NOAA into law. 
It will raise the profile of science at NOAA and improve its 
management. The bill also will greatly improve oversight of the 
agency by ensuring that Congress and the public get the 
information needed to evaluate NOAA's organizational structure, 
facilities plans, budgeting, and satellite programs. This is a 
solid bill that will strengthen the agency.
    And now we look forward to working with the Resources 
Committee, which shares jurisdiction over portions of NOAA, to 
get this bill to the Floor. Also related to NOAA, we will take 
up Congressman Rohrabacher's bill to create a Scholarship for 
Service Program at NOAA. And he is a real leader on that 
effort, and we applaud that. We have done the same thing with 
NASA and the Department of Energy. Service scholarships are a 
great way to entice students into science, math, and 
engineering while also helping the Federal Government develop 
the workforce it will need. These scholarships have been 
championed tirelessly by Congressman Rohrabacher, and I 
congratulate him for that.
    We are running the scholarship program through as a 
separate bill, because specific program authorizations 
generally are not part of agency Organic Acts. We will also 
take up two bills related to space today. These were last-
minute additions to today's roster, which is something we have 
generally avoided on this committee. But this seemed like an 
opportune time to move these bills, and we continue to work on 
them through manager's amendments on the Floor.
    Mr. Udall's bill, which the Committee also passed last 
Congress, concerns remote sensing. Mr. Udall will offer an 
amendment that will take care of concerns raised by companies 
in the remote sensing data business, concerns that have stymied 
progress on this bill in the past. I know that Mr. Bonner and 
I, perhaps some others, have some further ideas for perfecting 
the bill, and we will work on those as the bill moves forward.
    Mr. Rohrabacher's bill focuses on near-Earth objects, a 
subject that has long concerned him and has gotten quite a bit 
of publicity lately. Congressman Rohrabacher has helped us all 
understand that asteroids may present a real threat to Earth 
and that we need to pay greater attention to them. All of these 
bills will improve our lives through increasing our 
understanding of the Earth, how it works, and what may threaten 
it.
    As usual, these bills represent a bipartisan effort, and I 
take pride in that. I look forward to their passage.
    The Chair recognizes Mr. Gordon.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I want to welcome everyone here today for this markup of bills 
concerning the heavens and the Earth--and to the agencies that explore 
them, NOAA and NASA.
    The main bill before us today is the NOAA Organic Act, introduced 
by Dr. Ehlers, which we had initially planned to mark up last week. 
This bill will give NOAA a firm legislative grounding, something that 
was called for by the Ocean Commission among others. The Administration 
has also called for an Organic Act for NOAA.
    But our bill will do more than merely found NOAA in law. It will 
raise the profile of science at NOAA and improve its management. The 
bill also will greatly improve oversight of the agency by ensuring that 
Congress--and the public--get the information needed to evaluate NOAA's 
organizational structure, facilities plans, budgeting and satellite 
programs. This is a solid bill that will strengthen the agency.
    And now we look forward to working with the Resources Committee, 
which shares jurisdiction over portions of NOAA, to get this bill to 
the Floor.
    Also related to NOAA, we will take up Congressman Rohrabacher's 
bill to create a scholarship for service program at NOAA, as we have at 
NASA and the Department of Energy. Service scholarships are a great way 
to entice students into science, math and engineering while also 
helping the Federal Government develop the workforce it will need. 
These scholarships have been championed tirelessly by Congressman 
Rohrabacher, and I congratulate him for that.
    We are running the scholarship program through as a separate bill 
because specific program authorizations generally are not part of 
agency organic acts.
    We will also take up two bills related to space today. These were 
last minute additions to today's roster, which is something we have 
generally avoided on this committee. But this seemed like an opportune 
time to move these bills, and we can continue to work on them through 
manager's amendments on the Floor.
    Mr. Udall's bill, which the Committee also passed last Congress, 
concerns remote sensing. Mr. Udall will offer an amendment that will 
take care of concerns raised by companies in the remote sensing data 
business--concerns that have stymied progress on this bill in the past. 
I know that Mr. Bonner and I and perhaps some others have some further 
ideas for ``perfecting'' the bill, and we will work on those as the 
bill moves forward.
    Mr. Rohrabacher's bill focuses on Near-Earth Objects, a subject 
that has long concerned him and that has gotten quite a bit of press 
lately. Congressman Rohrabacher has helped us all understand that 
asteroids may present a real threat to Earth and that we need to pay 
greater attention to them.
    All of these bills will improve our lives through increasing our 
understanding of the Earth, how it works and what may threaten it. As 
usual, these bills represent a bipartisan effort. I look forward to 
their passage.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman. You have summed up 
what we are going to do this morning very well. I just want to 
concur that it is a good idea, I think, to take up these 
additional three bills today, and I want to give my thanks to 
the staff on both sides for the good cooperative work that they 
have done over the last week in trying to bring NOAA together 
as well as these three bills, and I look forward to the markup.
    And I yield my time back.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    I want to thank the Chairman for scheduling this markup.
    Originally we were to just take up H.R. 50 today, but I think it is 
to the advantage of our Members that we will expeditiously take up 
three other bills, all of which can probably move on suspension on the 
Floor.
    In addition to the NOAA organic act, I am especially pleased to see 
the Remote Sensing Act move through Committee. We have dealt with this 
in past Congresses and I am happy the Chairman agrees that we can move 
that bill forward today.
    I don't want to delay the process here this morning with an 
extensive preliminary statement, but let me take a moment to thank 
staff on both sides of the aisle for their work to handle these bills. 
I think the Members have been well served through their efforts.
    With that, I yield back, Mr. Chairman.

    Chairman Boehlert. Thank you very much.
    Without objection, Members may place statements in the 
record at this point.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    Good morning, everyone. Mr. Chairman, I am pleased to be here today 
to participate in the Science Committee's markup of H.R. 50. I 
appreciate your interest in moving forward to develop legislation that 
will provide NOAA with the statutory foundation to guide its missions 
and functions.
    NOAA is this nation's lead agency charged with conserving and 
managing our coastal and oceanic resources. NOAA also plays a vital 
role in public safety through the programs of the National Weather 
Service to issue weather forecasts and warnings. We must ensure that 
NOAA has the resources and authorities it needs to meet its statutory 
responsibilities and to accomplish its resource management and public 
safety missions. H.R. 50 makes a good start on this effort, and we want 
to continue to work with Chairman Boehlert and the majority on the 
dollar figures for facility changes.

    [The prepared statement of Ms. Jackson Lee follows:]

        Prepared Statement of Representative Sheila Jackson Lee

Mr. Chairman,

    The National Oceanic and Atmospheric Administration Act is an 
important piece of legislation that deserves strong consideration along 
with the appropriate Amendments. NOAA was created through the merger of 
a number of organizations in the 1970s. However, it still has no 
legislation that establishes it as an Agency or formally defines it 
missions.
    The legislation before this committee today will help to refine the 
mission of NOAA and allow the agency to succeed in the future. 
Specifically, the legislation authored by my colleague Mr. Ehlers will 
define broad mission areas and general authorities and to codify the 
existing primary administrative positions at NOAA. Based upon text from 
the Ocean Commission report this bill defines the mission and function 
of NOAA. The bill codifies the current senior positions of the agency: 
Administrator/Under Secretary of Commerce for Oceans and Atmosphere and 
the Assistant Secretary for Oceans and Atmosphere. The current 
positions of Deputy Under Secretary and Deputy Assistant Secretary for 
Oceans and Atmosphere are also specifically authorized and Deputy 
Assistant Secretary for International Affairs.
    Among the provisions I am most supportive of is Section 5 of the 
bill which calls upon NOAA to maintain the National Weather Service as 
a distinct entity. The National Weather Service Employees Organization 
(NWSEO) is very supportive of this position. NWS forms a major part of 
NOAA's operational mission and I have long advocated that accurate 
weather forecasting is not only useful for planning purposes, but can 
also be used in possible life saving capacity as the technology 
continues to develop.
    This legislation needs to be clearer on certain issues; I am 
especially concerned about the issue of separation between the mission 
of NOAA and the Earth science programs at NASA. As we heard last week 
from testimony provided by Mr. Diaz of NASA at last week's Full 
Committee hearing, he indicated NASA's plan for a number of their 
missions (Landsat, Glory) will be to transfer these Earth science 
programs to NOAA. In addition, the Ocean Commission Report suggests 
that NOAA should take on NASA's Earth sciences programs. Firstly, I am 
against the idea that Earth science programs should be diminished at 
NASA. Secondly, NOAA's budget cannot absorb these programs in its 
current budget. The current mission statement in the bill does create 
overlap with the mission statement for NASA. Clarifying language should 
be inserted to ensure that these necessary Earth science programs are 
continued in one fashion or another.
    Again, I believe this legislation is pertinent and should be 
implemented with due consideration for all amendments. NOAA deserves to 
have proper mission which is achievable under the right parameters.
    Thank you.

    Chairman Boehlert. We will now consider H.R. 50, National 
Oceanic and Atmospheric Administration Act. I recognize Dr. 
Ehlers to present some introductory remarks.
    Mr. Ehlers. Thank you, Mr. Chairman, for the opportunity to 
explain my bill.
    This is certainly an important bill, and I say that not 
because I have a large ego, but because it is very rare that we 
have an opportunity to pass an organic act through this 
committee. And this bill, H.R. 50, establishes an organic act 
for NOAA, the National Oceanic and Atmospheric Administration 
Act.
    An organic act defines the overall mission and functions of 
an agency. As an example, my bill states that the mission of 
NOAA is to, first, understand and predict changes in the 
Earth's oceans and atmosphere; second, conserve and manage 
coastal, ocean, and Great Lakes ecosystems; and third, educate 
the public about these topics.
    NOAA was created in 1970 by an Executive Order that placed 
the agency in the Department of Commerce and transferred 
various oceanic and atmospheric functions from other agencies 
into the new NOAA. Since that time, NOAA has operated under a 
confusing collection of issue-specific laws that are not 
coordinated by an overarching mission, therefore, the need for 
an organic act.
    In September 2004, the U.S. Commission on Ocean Policy 
released its final report, which called for Congress to pass an 
organic act for NOAA and clarify in one place the mission and 
program goals of the agency. The Bush Administration supports 
Congressional passage of a NOAA and organic act and made it a 
priority in the Administration formal response to the Ocean 
Commission report. In the 108th Congress, witnesses at Science 
Committee hearings strongly endorsed this bill.
    Today, I will offer a manager's amendment, which makes 
technical corrections and reflects negotiations with the 
minority. I will explain the amendment further when it is 
offered.
    I should note that H.R. 50 contains little language about 
fisheries management at NOAA, because that topic is under the 
jurisdiction of the Resources Committee, and in particular, the 
jurisdiction of the Subcommittee chaired by my colleague from 
Maryland, Mr. Gilchrest.
    I look forward to working with the Members of that 
committee to join us in passing truly comprehensive legislation 
for NOAA. I urge my colleagues today to support H.R. 50, and I 
yield back the balance of my time.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Thank you, Mr. Chairman, for the opportunity to explain my bill. 
H.R. 50, the National Oceanic and Atmospheric Administration Act, is an 
organic act for NOAA. An organic act defines the overall mission and 
functions of an agency. As an example, my bill states that the mission 
of NOAA is to:

        (1)  understand and predict changes in the Earth's oceans and 
        atmosphere;

        (2)  conserve and manage coastal, ocean, and Great Lakes 
        ecosystems; and

        (3)  educate the public about these topics.

    NOAA was created in 1970 by an executive order that placed the 
agency in the Department of Commerce and transferred various oceanic 
and atmospheric functions from other agencies into the new NOAA. Since 
that time, NOAA has operated under a confusing collection of issue-
specific laws that are not coordinated by an overarching mission.
    In September 2004, the U.S. Commission on Ocean Policy released its 
final report, which called for Congress to pass an organic act for NOAA 
and clarify in one place the mission and program goals of the agency. 
The Bush Administration supports Congressional passage of a NOAA 
organic act, and made it a priority in the Administration formal 
response to the Ocean Commission report. In the 108th Congress 
witnesses at Science Committee hearings strongly endorsed my bill.
    Today I will offer a manager's amendment which makes technical 
corrections and reflects negotiations with the minority. I will explain 
the amendment further when it is offered.
    I should note that H.R. 50 contains little language about fisheries 
management at NOAA because that topic is under the jurisdiction of the 
Resources Committee, in particular the Subcommittee chaired by my 
colleague from Maryland, Mr. Gilchrest. I look forward to working with 
the Members of that committee to join us in passing truly comprehensive 
legislation for NOAA. I urge my colleagues to support H.R. 50, and I 
yield back the balance of my time.

    Chairman Boehlert. Thank you very much, Dr. Ehlers, and a 
special thanks from all of us for your hard work to bring us to 
the point where we find ourselves today.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman.
    Once again, let me say that I think Mr. Ehlers has done a 
good job in evaluating this bill, and I want to thank him for 
the work with his staff in putting it together.
    A couple of concerns I do have, though, is that we are 
still trying to determine what is an appropriate value to be 
triggering the review process. The bill has a $5 million limit, 
but I think the Committee needs to do some more work on this to 
make sure that that really is a valid number, and I am sure we 
will be doing that before it goes to the Floor. And I do 
appreciate Mr. Ehlers' work in the past.
    Finally, let me just say that the bill defines a broad 
mission for NOAA to allow this agency to grow and change as 
needed to serve our resource needs as our nation grows and 
changes. However, I do not believe the broadly-defined mission 
in this bill should serve as an invitation to this or future 
Administrations to transfer programs from other agencies to 
NOAA without sufficient planning and adequate funding. And I 
think that is very important.
    We look forward to working with you and our colleagues on 
the Committee of Resources as this bill continues to move 
forward, and I yield back my time.
    [The prepared statement of Mr. Gordon follows:]

            Prepared Statement of Representative Bart Gordon

    Thank you, Mr. Chairman for bringing H.R. 50 before the Committee 
this morning. I would also like to thank Rep. Ehlers for introducing 
the NOAA Organic Act.
    I recognize H.R. 50 is not yet a true organic act for NOAA. The 
bill does not include important authorities and functions in fisheries, 
coastal zone management, ocean mapping and charting, and a number of 
other important operations that are in the jurisdiction of the 
Committee on Resources.
    This committee's programs, however, are well-treated in this 
legislation. I am especially pleased that we are including explicit 
language to ensure that the structure and function of the National 
Weather Service remains unchanged.
    The 3,700 employees of the National Weather Service fulfill a vital 
public safety mission across this nation everyday in cooperation with 
the network of professionals in the private sector.
    We have worked well together on language to try to establish a 
regular procedure for proposed changes in NOAA facilities. However, I 
want to keep working to understand what an appropriate dollar value is 
to trigger that review process. The bill has $5 million, but I think 
the Committee needs to do more work before this bill gets to the floor 
to understand all the implications of this language. We do have some 
information from NOAA on this, but since they prefer the $5 million 
number I think we need to double check some of that information.
    We have achieved steady improvements to our weather forecasting 
through investments in research and technology and the expansion of our 
system of weather observing satellites. We should ensure continued 
progress in weather forecasting and understanding the Earth's 
atmospheric and oceanic systems.
    The bill defines a broad mission for NOAA to allow this agency to 
grow and change as needed to serve our resource needs as our nation 
grows and changes. However, I do not believe the broadly defined 
mission in this bill should serve as an invitation to this or a future 
Administration to transfer programs from other agencies to NOAA without 
sufficient planning and adequate funding.
    We look forward to working with you and our colleagues on the 
Committee on Resources as this bill moves forward.

    Chairman Boehlert. Thank you very much.
    I ask unanimous consent that the bill be considered as read 
and open to amendment at any point and that Members proceed 
with the amendments in the order of the roster. Without 
objection, so ordered.
    The first amendment on the roster is an amendment offered 
in the nature of a substitute offered by Dr. Ehlers. I ask 
unanimous consent that the amendment in the nature of a 
substitute be treated as original text for purposes of 
amendment under the five-minute rule. Without objection, so 
ordered.
    Dr. Ehlers, are you ready to proceed?
    Mr. Ehlers. Yes, Mr. Chairman.
    This substitute amendment strengthens and clarifies certain 
sections of H.R. 50.
    Chairman Boehlert. Excuse me, Dr. Ehlers.
    The Clerk will report the amendment, and then we will hear 
the eloquent words of Dr. Ehlers.
    Mr. Ehlers. I have an amendment at the desk.
    Ms. Tessieri. Amendment in the nature of a substitute to 
H.R. 50 offered by Mr. Ehlers of Michigan.
    Chairman Boehlert. I ask unanimous consent to dispense with 
the reading. Without objection, so ordered.
    The gentleman is recognized for five minutes.
    Mr. Ehlers. Thank you, Mr. Chairman.
    This substitute amendment strengthens and clarifies certain 
sections of H.R. 50, as it was reported by the Environment, 
Technology, and Standards Committee. Specifically, as compared 
to the bill as reported, my amendment first provides technical 
clarification. It also provides additional authorities of the 
Administrator of NOAA, such as conducting education and 
outreach activities. It emphasizes NOAA's role in forecasting 
of and warning for tsunamis. It also provides for input from 
the National Academy of Sciences earlier in the process of NOAA 
developing its strategic plan for management of its 
environmental data and information systems. It requires NOAA to 
notify Congress when NOAA starts new satellite programs, 
encounters serious problems with, or makes major changes to 
existing satellite programs, and finally clarifies that nothing 
in the bill shall alter the responsibilities or authorities of 
other federal agencies.
    These changes were developed after careful consultation 
with the Administration, outside experts, NOAA stakeholders, 
and other Members of this committee.
    I urge my colleagues to support this substitute amendment 
for H.R. 50 and yield back the balance of my time.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    This substitute amendment strengthens and clarifies certain 
sections of H.R. 50 as it was reported by the Environment, Technology 
and Standards Committee.
    Specifically, as compared to the bill as reported, my amendment:

        <bullet>  Provides technical clarifications;

        <bullet>  Provides additional authorities for the Administrator 
        of the NOAA, such as conducting education and outreach 
        activities;

        <bullet>  Emphasizes NOAA's role in forecasting of and warning 
        for tsunamis;

        <bullet>  Provides for input from the National Academy of 
        Sciences earlier in the process of NOAA developing its 
        strategic plan for management of its environmental data and 
        information systems;

        <bullet>  Requires NOAA to notify Congress when NOAA starts new 
        satellite programs, encounters serious problems with or makes 
        major changes to existing satellite programs; and

        <bullet>  Clarifies that nothing in the bill shall alter the 
        responsibilities or authorities of other federal agencies.

    These changes were developed after careful consultation with the 
Administration, outside experts, NOAA stakeholders, and other Members 
of this committee. I urge my colleagues to support this substitute 
amendment for H.R. 50 and yield back the balance of my time.

    Chairman Boehlert. I want to thank Dr. Ehlers for his work 
on the bill, and the Chair supports his amendment.
    Is there further discussion on the amendment?
    Mr. Udall. Mr. Chairman, I would move to strike the last 
word.
    Chairman Boehlert. Who seeks recognition?
    Mr. Udall, my distinguished colleague and good friend from 
Colorado.
    Mr. Udall. Thank you, Mr. Chairman.
    I will be brief, I hope.
    I am pleased to see some of the changes included in my good 
friend, Dr. Ehlers' amendment regarding the evaluation process 
for the closures, relocation, or consolidation of NOAA 
facilities. Particularly, I am pleased to see that the Congress 
must be notified if any NOAA facility will be closed, 
relocated, or consolidated. This covers 183 facilities that 
could have been closed without Congressional notification under 
the original definition of a facility as having a budget 
greater than $1 million.
    I am also pleased that the language has been included to 
evaluate National Weather Service's field offices by involving 
a similar evaluation process used in the National Weather 
Modernization Act.
    These are both good government provisions, and I am pleased 
that they have been included in Dr. Ehlers' amendment.
    However, I would like to express my concern that there are 
at least 28 NOAA facilities with budgets between $1 million and 
$5 million. NOAA will merely have to notify Congress of 
closures, relocations, or consolidations of these facilities 
without going through an evaluation process. I do not believe 
that we know enough about how this will affect these 28 
facilities at this time to set the number at $5 million.
    While I do not want to try to amend this language in an 
effort to move the bill through Committee, I plan to continue 
to work on the issue in an effort to ensure that any changes to 
the organization of NOAA facilities is thoroughly evaluated and 
services are not degraded.
    In conclusion, I would like to thank the Chairman and Dr. 
Ehlers for working with me on this issue, and I look forward to 
continuing this working relationship in the future as we move 
this bill forward.
    With that, Mr. Chairman, I would yield back any time I have 
remaining. Thank you.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Mr. Chairman, I move to strike the last word.
    I am pleased to see some of the changes included in this amendment 
regarding the evaluation process for the closures, relocation, or 
consolidation of NOAA facilities.
    Particularly, I am pleased to see that Congress must be notified if 
any NOAA facility will be closed, relocated or consolidated. This 
covers 183 facilities that could have been closed without Congressional 
notification under the original definition of a facility as having a 
budget greater than $1 million.
    I am also pleased that language has been included to evaluate 
National Weather Services field offices by involving a similar 
evaluation process used in the National Weather Modernization Act.
    These are both good government provisions and I am pleased they 
have been included in Mr. Ehlers amendment.
    However, I would like to express my concern that there are at least 
28 NOAA facilities with budgets between $1 and $5 million. NOAA will 
merely have to notify Congress of closures, relocations or 
consolidations of these facilities without going through an evaluation 
process.
    I do not believe that we know enough about how this will affect 
these 28 facilities at this time to set the number at $5 million.
    While I do not want to try to amend this language in an effort to 
move the bill through Committee, I plan to continue to work on issue in 
an effort to ensure that any changes to the organization of NOAA 
facilities is thoroughly evaluated and services are not degraded.
    I would like to thank the Chairman and Mr. Ehlers for working with 
me on this issue and hope to continue this working relationship in the 
future.
    With that Mr. Chairman, I yield back.

    Chairman Boehlert. Thank you very much, Mr. Udall, and we 
will be glad to continue our work with you, because you bring 
up a very good point. It is one that should concern us all, and 
we will work cooperatively to get the best possible result.
    The vote, then, is on--all right.
    The second amendment on the roster is offered by the 
gentleman from Illinois, Mr. Costello. Are you ready to 
proceed?
    Mr. Costello. Mr. Chairman, I am. My amendment is at the 
desk.
    Chairman Boehlert. The Clerk will read the amendment.
    Ms. Tessieri. Amendment offered by Mr. Costello of 
Illinois.
    Mr. Costello. Mr. Chairman, I ask that we dispense with the 
reading of the amendment.
    Chairman Boehlert. Without objection, so ordered.
    The gentleman is recognized for five minutes to explain his 
amendment.
    Mr. Costello. Mr. Chairman, I thank you.
    And Mr. Chairman, my amendment is a ``buy American and 
protect American jobs'' amendment. The amendment is 
straightforward, and it will protect American jobs.
    Mr. Chairman, my amendment addresses two contracting issues 
with NOAA. One, it prohibits federal jobs from being outsourced 
to foreign nations, and two, it requires NOAA contracts for 
goods and services to be performed in the United States.
    In cases where NOAA issues a contract for goods or services 
to a private-sector contractor, NOAA would have to ensure that 
the contract work is being done in the United States. Foreign 
labor may not be substituted for U.S. labor.
    The amendment provides exceptions to this policy. One, the 
new Administrator may waive the requirement if an essential 
instrument or service is only produced outside the United 
States or is only produced by non-U.S. manufacturers. Two, the 
President may waive the requirement if, in his opinion, it is 
in the interest of national security. Three, the restriction 
does not apply to goods or services that are now obtained for 
use outside of the United States or in case where the functions 
are performed by U.S. federal workers outside the United 
States.
    Regardless of how Members of the Committee feel about the 
A-76 process on either side of the aisle, we should have an 
agreement that tax dollars should not be spent to create jobs 
in other countries and put Americans out of work. We must look 
for ways to protect our national economy. NOAA should be 
getting its goods and services here in America, not abroad. We 
may not be able to keep the big multi-national firms from 
moving offshore or setting up supply chains that stretch from 
China to our local retailers, but we ought to be able to block 
NOAA from doing exactly that.
    And Mr. Chairman, I ask for your support and ask for the 
support of Members of the Committee, and I----
    Mr. Gordon. Would the gentleman yield?
    Mr. Costello. I would be happy to yield to the Ranking 
Member.
    Mr. Gordon. Let me just quickly say that, as you pointed 
out, we are all aware that the Administration has launched an 
aggressive effort to cut government jobs through the A-76 
circular out of OMB. And we all want to see government work as 
efficiently as possible, but I think the jury is still out on 
this outsourcing, whether it really is effective. But clearly, 
your niche in this of not sending jobs overseas is an important 
one. I think that it is something that we can all agree upon, 
and I commend you for this amendment.
    Chairman Boehlert. Thank you.
    The gentleman's time has expired.
    I know the gentleman's amendment is well-intended, and none 
of us would argue with its thrust to keep and create jobs in 
the United States. I always say that ``jobs'' is my favorite 
four-letter word.
    But here is the problem with the amendment.
    In many ways, it runs afoul of our international trade 
obligations. We all know the world is flat. We are constantly 
reminded of that every single day. Specifically, we have signed 
treaties in which we and the other signatories agree not to 
limit most government procurements. And guess why we do that. 
We do it because we think it will help keep and create jobs in 
the United States by enabling U.S. companies to compete for 
government contracts abroad. There is no way to know for sure, 
but it is perfectly likely that this amendment would actually 
cost jobs in the United States by preventing U.S. companies 
from winning procurement contracts overseas.
    Moreover, the amendment is at odds with our international 
obligations and possibly endangers American jobs, even though 
no one can point to a particular problem that this amendment is 
designed to resolve.
    Is there any indication that NOAA has been loose with the 
taxpayers' money by needlessly sending money overseas? The 
answer is no. This amendment is a well-meaning, symbolic 
expression of the concern we all have with outsourcing, but it 
is not designed to combat a specific known problem.
    But it would create specific known problems by conflicting 
with trade agreements. And I would add that the Administration 
strenuously objects for that same reason.
    So I will offer a second-degree amendment that says that 
the Costello language can not override an international 
obligation of the United States. I imagine Mr. Costello will 
claim, and I know him from long experience working closely with 
him, and we are very good friends, but he will claim, probably, 
that this amendment, my second-degree amendment, would gut his 
amendment. If that is so, then it just confirms that Mr. 
Costello's language would create an international trade 
incident, which may hurt the United States. If my language will 
not gut Mr. Costello's effort, then there is no reason not to 
pass it.
    So I urge passage of my amendment, which will balance Mr. 
Costello's good intentions. Let me emphasize that. Good 
intentions. But we also have to match that with our obligation 
to ensure that the United States abides by its international 
commitments.
    [The prepared statement of Chairman Boehlert follows:]

          Prepared Statement of Chairman Sherwood L. Boehlert

    I know the gentleman's amendment is well intentioned. And none of 
us would argue with its ostensible purpose--to keep and create jobs in 
the U.S. I always say that ``jobs'' is my favorite four-letter word.
    But here's the problem with the amendment. In many ways, it runs 
afoul of our international trade obligations. Specifically, we have 
signed treaties in which we and the other signatories agree not to 
limit most government procurements. And guess why we do that? We do it 
because we think it will help keep and create jobs in the U.S. by 
enabling U.S. companies to compete for government contracts abroad. 
There's no way to know for sure, but it's perfectly likely that this 
amendment would actually cost jobs in the U.S. by preventing U.S. 
companies from winning procurement contracts overseas.
    Moreover, this amendment is at odds with our international 
obligations and possibly endangers American jobs even though no one can 
point to a particular problem that this amendment is designed to 
resolve. Is there any indication that NOAA has been loose with the 
taxpayers money by heedlessly sending money overseas? No.
    This amendment is a well meaning, symbolic expression of the 
concern we all have with outsourcing, but it's not designed to combat a 
specific, known problem. But it would create specific, known problems 
by conflicting with trade agreements. And I would add that the 
Administration strenuously objects for that same reason.
    So, I will offer a second-degree amendment that says that the 
Costello language cannot override an international obligation of the 
United States.
    I imagine Mr. Costello will claim that this would ``gut'' the 
amendment. If that is so, then it just confirms that Mr. Costello's 
language will create an international trade incident, which may hurt 
the U.S. If my language will not ``gut'' Mr. Costello's effort, then 
there's no reason not to pass it.
    So I urge passage of my amendment, which will balance Mr. 
Costello's good intentions with our obligation to ensure that the U.S. 
abides by its international commitments.

    Mr. Costello. I would ask the Chair to yield.
    Chairman Boehlert. The Chair is pleased to yield to his 
good friend and colleague.
    Mr. Costello. Mr. Chairman, let me respond, if I may. I was 
not going to suggest that it guts my amendment, but apparently 
it does.
    Let me make a couple of points.
    One, you make the point of a foreign country or someone 
objecting and challenging this provision because of the 
international trade agreements that we have through the WTO. 
And I would just suggest that this committee should not be in 
the business of attempting to protect trade agreements, and in 
fact, a provision such as this that we are offering as this 
amendment has never been challenged at all by the International 
Trade Commission. There has not been a foreign country ever 
challenge an issue with the U.S. Government to go to court over 
this issue before.
    Number two is let me suggest that we have offered and 
debated several amendments to other bills in the past, and the 
Chair has been very protective in the past of having amendments 
adopted that would result in referring a bill from this 
committee to another committee. And it--I would suggest that--I 
am told at least that your amendment to my amendment would, in 
fact, result in this bill being referred to the Ways and Means 
Committee.
    So I would just raise that issue and last say that, you 
know, Members of the Committee have a choice today regarding 
NOAA. And the choice is, with exceptions, with--giving the 
President the exception that if it is in the interest of 
national security, NOAA would not have to abide by this. If 
they are buying products now that are only made outside of the 
United States, there would be an exception. So I am--it is 
pretty clear to me that, you know, instead of this committee 
protecting or trying to protect international trade agreements 
that have never been challenged in the past on this issue, I 
would just suggest that we have a choice to make today and that 
is we can either protect American jobs from going overseas 
through contracts and services or we can sit here and try and 
protect trade agreements that I think many of us do not support 
to begin with.
    But I would ask again for Members--for their support of my 
amendment and to respectfully reject the Chairman's amendment.
    And I thank you, Mr. Chairman, for your time.
    Chairman Boehlert. I am glad you noted respectfully.
    Let me--first of all, let me just say before we proceed, 
and the way I would like to proceed, I will just respond 
initially briefly to you, and then I will have my amendment 
reported, and then we can continue the debate. Okay.
    Our advice from counsel is this will not result in a 
referral to Ways and Means or any other committee, so we are 
getting conflicting advice on both sides. But be that as it 
may----
    Mr. Costello. Mr. Chairman, we would like to take our 
counsel's advice.
    Chairman Boehlert. I don't blame you, but guess what, I 
have got the advantage of sitting in the Chair. And my counsel 
is pretty darn good. But we will get some clarification on 
that, too.
    The Clerk will report----
    Ms. Biggert. Mr. Chairman.
    Chairman Boehlert.--the amendment to the amendment.
    Ms. Biggert. Mr. Chairman.
    Chairman Boehlert. We are going to--here is what we are 
going to do. She is going to report, and then we will have 
further discussion.
    Ms. Tessieri. Amendment offered by Mr. Boehlert of New York 
to the amendment offered by Mr. Costello of Illinois.
    Chairman Boehlert. I ask unanimous consent that the 
amendment be considered as read, and so the Chair is recognized 
for five minutes. We will continue this.
    Ms. Biggert, you are next.
    Ms. Biggert. Thank you, Mr. Chairman.
    I move to strike the last word.
    I have just a couple of points.
    First of all, to the--to Mr. Costello's amendment, I have 
concerns when he talks about we will let the courts decide and 
it can always--or that we are protecting international trade 
agreements. We are not protecting international trade 
agreements. Trade agreements are a legal, binding contract on 
the United States and all of the other countries involved, and 
we can't protect them, but we really have to make sure that our 
actions do not violate the law.
    Second of all, the grandfathering in those contracts with 
others right now, I think that locks us into an old technology 
that if we can not make new agreements with other countries who 
might have the quality of goods that we need that the United 
States doesn't need and we have grandfathered them in, then 
they are not going to be able to proceed with--we can't go to 
another country with--that has better technology and that we 
don't have. So I have concerns just with the way that that is 
written.
    Second of all, with the proposed secondary amendment, I 
think that that helps to overcome the legality of trade 
agreements. My only concern with the secondary amendment is 
that it doesn't say who is going to decide. And in most cases 
like this, there usually is a provision as--that USTR will be 
the deciding body whether--you know, whether that would violate 
the trade agreement whether to be able to go ahead or not.
    So with that, I think there is a little bit of the language 
that would need to be looked at if we decide to go with the 
secondary amendment.
    And with that, I yield back.
    Chairman Boehlert. Thank you.
    Is there anyone--Ms. Jackson Lee has departed.
    Mr. Gutknecht.
    Mr. Gutknecht. Mr. Chairman, I am going to vote for your 
perfecting amendment here, but I do want to congratulate Mr. 
Costello for bringing this issue forward. And for those of you 
who have never been out to NOAA's headquarters out in Colorado, 
I would encourage you to make a trip out there. And after I was 
out there, I came back believing that this was an agency that 
not only had a point of view, but was willing to do whatever it 
took to prove that particular point of view. And that was 
discouraging for me.
    But I also want to say this. It is also discouraging to me 
that a lot of our partners around the world are more than eager 
to allow the United States to shoulder 90 percent of the cost 
of doing research of this type and then have little to offer 
except criticism of the United States. And so this may be a 
ham-fisted way to make a point, but I think it is an important 
point that Congress needs to make.
    And I guess if you boiled it all down, it comes to this: he 
who pays, plays. And a lot of our trading partners in Europe 
and in other parts of the world, who are supposedly our allies, 
will--are not willing to put up much money in terms of doing 
this kind of research but they are constantly critical of the 
United States for not doing enough. And so this may not be the 
perfect way to make a statement to some of our friends around 
the world, but at least it is an attempt.
    I will vote for the Chairman's perfecting amendment, but I 
would encourage all Members to pay very close attention not 
only to what NOAA is up to but sometimes to what our friends 
are up to as well.
    Ms. Jackson Lee. Mr. Chairman.
    Chairman Boehlert. Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman very much.
    I wish my colleagues would look specifically at Mr. 
Costello's language, and I think it is, if anything, leans 
toward absolute fairness. It particularly talks about 
procurement. It talks about contractors and subcontractors 
located outside of the United States. Time after time, Members 
have voted for this very same language on the Floor of the 
House. I hate to use the term ``buy American'' to defend 
someone, but I think part of the connection of Mr. Costello's 
language and intent, and I don't want to read my analysis into 
his language, but over and over again, we talk about building 
the science capacity, technology capacity here in the United 
States, the number of scholars that we can generate to begin to 
foster a greater involvement in this work. NOAA is a scientific 
entity. Albeit, it deals with our weather predictions and other 
scientific efforts. What Mr. Costello is doing is even more 
far-reaching than the concept of ``buy American.'' It is 
investing in America. I think he makes provisions if it is to 
the necessity of national security that he provides an 
exemption.
    And I am concerned, though I appreciate the intent of the 
Chairman's amendment, I am concerned that this throws this 
particular legislation into Ways and Means, which has 
jurisdiction over treaties. And this doesn't speak--he does not 
speak specifically to treaties, and by its silence, I think 
that this legislation can track and parallel the obligations of 
a treaty. What it says, where NOAA can, abiding by law, use the 
services and goods from within the United States, goods and 
services from the United States, they should do it. Why should 
we be against that? All of the protections are in the 
amendment.
    And I would hope that we would see this two-fold: one, 
investing in America, and three, investing in America's human 
resources, investing in America's small businesses, investing 
in America's technology, investing in America's science.
    I hope my colleagues will support the amendment, and I 
yield back.
    Thank you.
    Chairman Boehlert. Thank you very much.
    Before going to Mr. Hall, I just want it known that the 
Parliamentarian's office has confirmed that this will--my 
substitute amendment, second-degree amendment, will not trigger 
a referral to Ways and Means, so let us strike that from your 
thinking.
    Mr. Hall.
    Mr. Hall. Mr. Chairman, thank you.
    You know, the lady from Texas was absolutely correct in 
saying it is not an unfair thrust, but I was a judge for 12 
years, and most of them I ran into wanted a favorable treatment 
more than they wanted fair treatment. And I think from the 
manner that you had with Mr. Costello evidences the respect 
that you have for one another.
    But actually, ``buy American'' is a wonderful thrust and 
one that we have all supported and voted--all of us have voted 
for it many times in many shapes and in many forms. And I read 
this amendment over and looked at it with my advisor in my 
office. And my thought was if there is some way that the U.S. 
could get last chance at any underseller or underbuyer, and I 
don't know what your amendment does, but I would like something 
like that.
    Mr. Chairman, you put it to him pretty hard. If it harms, 
it should harm, and if it doesn't harm, there is no damage 
done. I will--you are going to explain your amendment, aren't 
you, a little more fully, your amendment to his amendment?
    Chairman Boehlert. I already did.
    Mr. Hall. And--well----
    Chairman Boehlert. Do you want me to repeat?
    No, I mean, as the fact--look, we are not----
    Mr. Hall. Well, maybe you could just talk louder for some 
of us older people. You know, your statement to the gentleman 
who has the amendment, Mr. Costello, is a lot like a guy 
standing in front of a judge in Texas that is about to condemn 
him to death and explained his actions, how horrible they were 
and how many children that the deceased left and what painful 
death it was for him, and he says, ``Now do you have anything 
to say before I sentence you to death?'' And he says, ``No, 
sir. Under the circumstances, I feel like I am getting off 
pretty light.''
    So I don't know if Mr. Costello feels that way or not, but 
I want to vote for his amendment, but I am going to support 
your correcting amendment, if it corrects the amendment. If it 
doesn't correct the amendment, it shouldn't correct the 
amendment. That is taking a page out of your book.
    I yield back.
    Chairman Boehlert. Thank you very much.
    And you just, once again, gave us testimony to why it is 
such a delight to have you serving on this committee.
    This--let me just say that this is unlike past ``buy 
American'' amendments, which did not supersede trade 
agreements. What we are saying with my language is that the 
Costello language can not override an international obligation 
of the United States. You know, I have been in the ranks with 
all of us here. We all have the same general intent. We want 
everybody to buy American. But we have some international 
agreements that have been entered into, and you know, we want 
to--we don't want to override those international agreements 
based on this amendment.
    So with that, let us see, who is next up? Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    Will the Chairman, as the author of the second-degree 
amendment, yield to a question or two?
    Chairman Boehlert. Will I yield or will----
    Mr. Miller. Yes.
    Mr. Chairman, do you agree with Mr. Costello that there is 
not now any clear provision of treaty or any clear ruling of 
law that would apply to this amendment to make it either 
permissible or not permissible under the WTO or any other trade 
agreement?
    Chairman Boehlert. Yeah.
    Mr. Miller. You do agree with that?
    Chairman Boehlert. The answer is essentially yes.
    Mr. Miller. But it is--okay. So then who would decide 
whether this was consistent or not? Would it simply be the 
Administration that would decide, and if so, what would be--on 
what basis would they decide?
    Mr. Costello. If the gentleman would yield while the 
Chairman is conferring, would you yield?
    Mr. Miller. I do yield.
    Mr. Costello. That is my whole point.
    Mr. Miller. Right.
    Mr. Costello. My whole point in the issue with the--when we 
are talking about international trade agreements, and my friend 
from Illinois made the point, I would tell you that, in my 
judgment, it is not clear what our international trade 
obligations are under the WTO treaties. And number two, you 
know, are we going to interpret treaties here, in this 
committee, or are we going to leave it up to the courts or the 
International Trade Association to determine what treaties are 
violated and what treaties are not violated?
    And I would just leave you with this thought. Are we going 
to be cautious about trying to protect trade agreements where 
we do not even know, as we sit here today, if this violates a 
trade agreement? I would just say, as opposed to being cautious 
about trade agreements, we ought to be aggressive about 
protecting American jobs.
    Mr. Miller. Mr. Costello, it did occur to me that my line 
of questioning might actually help the point you were making.
    Mr. Costello. And I thank the gentleman for that.
    Chairman Boehlert. Thank you very much, but let me just say 
we do know that this would violate existing trade agreement, 
and what would happen under the WTO? And it would be NOAA, in 
consultation with the U.S. Trade Representative, that would 
give us guidance and make the initial interpretation.
    We are not going to get into the treaty business here in 
the House. I agree with you on that. But we are involved in a 
number of treaties, and it seems that we are obligated, under 
the provisions of those treaties, to honor them, and we don't 
want to do anything that would be in violation that would 
trigger an action by WTO.
    Mr. Miller. I am sorry. Was that in answer to the question 
of who decides and on what basis?
    Chairman Boehlert. Yeah. Yeah. The--NOAA, in consultation 
with USTR, and incidentally, WTO procurement agreement would be 
violated. The CRS review determined that.
    Mr. Miller. Okay. My third--actually, I have just a couple 
more questions, if I am not----
    Chairman Boehlert. Have at it.
    Mr. Miller. All right. Thank you, sir.
    Mr. Chairman, do you agree with Ms. Biggert's point that 
Congress can not exempt this from WTO, or any other trade 
agreement, anyway?
    Chairman Boehlert. Restate your question, please.
    Mr. Miller. I believe Ms. Biggert made the point that we 
cannot--Mr. Costello's amendment could not exempt NOAA's 
procurement from WTO requirements anyway. Is that--do you agree 
with that? Do you agree with Ms. Biggert?
    Chairman Boehlert. Yeah, but then there is no reason to 
oppose my amendment.
    Mr. Miller. But then that also raises the question of 
whether it is necessary or whether it is redundant, not that 
redundancy has ever been particularly a political sin. We would 
all be in deep trouble were it.
    Mr. Gordon. Would my friend from North Carolina yield? I 
think I can maybe sum this up.
    Mr. Miller. All right.
    Mr. Gordon. The--in my opinion, in my legal opinion, the 
fact of the matter is, we can not, through this committee, pass 
some type of law that would make us be in non-compliance with 
an international treaty. So, I mean, you know, we can't do 
that.
    And so here is the practical part of this. There is a lot 
of gray area in this law, and what--and this amendment, or 
this--by putting this secondary amendment, it really puts us 
into a burden of proof situation. In other words, we can't pass 
a law that says that we are going to be in violation of an 
international treaty. But--that is very vague. And so what this 
amendment would do, secondary amendment would do, it would put 
the--really the burden of proof on leaning more toward the 
international treaties than it would on leaning toward trying 
to be aggressive and protecting American jobs.
    So it is really dealing in that gray area, and the kind of 
message you are going to send out, it is--under no 
circumstances are we in this Science Committee going to pass a 
law that would allow us to violate an international treaty.
    Chairman Boehlert. Yeah, and it----
    Mr. Gordon. And I yield back.
    Chairman Boehlert. And we are not the people who are going 
to sit in judgment. It is going to be the Administrator of NOAA 
in consultation with U.S. Trade Representative. We are not 
getting into that business.
    Mr. Miller. Mr. Chairman, I did have one more question.
    Chairman Boehlert. Who else seeks recognition?
    Mr. Miller. Actually, could I just ask----
    Chairman Boehlert. Ms. Johnson.
    Mr. Miller. I guess I can't ask one more?
    Chairman Boehlert. Your time is expired now.
    Ms. Johnson.
    Ms. Johnson of Texas. Mr. Chairman, I would like to yield 
to Mr. Costello before me.
    Chairman Boehlert. The gentleman is recognized.
    Mr. Costello. I thank the gentlelady for yielding. And I 
would--you know, we could sit here for the next half-hour and 
go back and forth on this issue, but I think it is pretty 
clear. The Chairman stated it just a second ago. We are not 
going to get into the business of determining international 
treaties in this committee. But any time that we can try and 
protect American jobs, we should. And if, in fact, this, at 
some point in time, that it is determined that it is a 
violation of an international trade agreement, which I doubt 
very seriously that it is, then we can come back and address 
that. But today, we ought to be protecting American jobs.
    And I yield to the gentleman from North Carolina.
    Mr. Miller. Thank you.
    I am sorry, Mr. Chairman. I have one more question for you.
    Chairman Boehlert. Why am I not surprised?
    The gentleman will ask the question.
    Mr. Miller. All of the discussion so far, Mr. Chairman, has 
been about jobs and about buying American. But does this not 
also allow the contracting outside the United States of 
services? Are we going to be building scientific expertise 
somewhere other than here? Of course, I prefer to buy American 
goods, but I am particularly concerned about building 
scientific expertise in the United States, not somewhere else.
    Chairman Boehlert. We don't have any problem with 
Subsection A of the amendment. Get the amendment. Read it. What 
my second-degree amendment simply says, and I will repeat, 
``can not override an international obligation of the United 
States.''
    Mr. Miller. Right.
    Chairman Boehlert. That is not the responsibility of the 
Science Committee to determine. That is the responsibility of 
the Administrator of NOAA in consultation with the World--with 
the U.S. Trade Representative of any Administration.
    Who else seeks recognition?
    Ms. Biggert.
    Ms. Biggert. Let me just take that one step further.
    The reason that it is so important that we have this 
secondary amendment is because if we don't, and there is a--we 
are cited by the--and it goes to court to decide, then what 
happens is that the World Trade Organization will, if they say 
yes we are in violation of a trade agreement, then they can 
sanction us. And it doesn't mean that they are going to 
sanction NOAA or anything. They can sanction any product in 
our--in this country, like, say, agriculture or financial 
services, anything. And so it is so important that we make this 
decision prior to going to court. And that is why it is so 
important that it is with NOAA and with the USTR to give us an 
opinion before this is done whether it would be a violation or 
not.
    Mr. Costello. And I wonder if my friend from Illinois would 
yield?
    The point that I have made, as I am trying to make, is 
that, to my knowledge, and staff has informed me, that there 
has never been a challenge to a ``buy American'' agreement 
through the World Trade Organization. So there is not a ruling 
by a court, there is not a ruling by anyone on any of these 
issues. And what I am saying is, at some point in time, we have 
to stand up and say enough is enough. And we have to begin to 
protect American jobs.
    Now this is not an amendment that says that NOAA can not 
contract out for services, can not contract out for other goods 
to foreign countries or to foreign labor. There are exceptions. 
If the President determines that it is in the interest of 
national security or if there are products that are only made 
outside of the United States that can not be obtained here in 
the country, or if, in fact, the goods are being made by U.S. 
workers in other countries, those exceptions are clear in the 
amendment. And I would say, you know, at some point in time, we 
need to not be so concerned about protecting a gray area in an 
international trade agreement and start protecting jobs here at 
home.
    Ms. Biggert. If I might reclaim my time.
    We also have to be protective of our legal obligations and 
to make sure that those are not violated. I just think it is 
one more--all of your exceptions are very good. Your premise is 
very good of buying American, but this one makes it even 
better.
    Mr. Costello. And I would say that the courts are there for 
a reason, that we shouldn't be--we are the Judicial Branch. 
They are the Judicial Branch, we are the Legislative Branch, 
but the branch that will determine this will be the Judicial 
Branch, not the Legislative Branch, and if we are going--every 
action that we take, if we are going to be concerned that it is 
going to be overruled by a court, you know, I don't think we 
would ever get anything done around here.
    Ms. Biggert. I don't think that we are worried about 
whether what we are doing is legal under the WTO. And this is a 
global economy, and we are participating.
    I yield back.
    Chairman Boehlert. Thank you very much.
    And thank you.
    Ms. Johnson of Texas. Mr. Chairman.
    Chairman Boehlert. Ms. Johnson.
    Ms. Johnson of Texas. Just one more, I guess, comment.
    If we get too over concerned about the language of the 
treaties and not allow the appropriate ones to get concern, 
it--then I would like to explore what our treaty says with 
China, because apparently they have an open-ended agreement, if 
we are going to get into treaty agreements, because they 
certainly don't respect any of our guidelines.
    Chairman Boehlert. I was just advised by the distinguished 
Chief of Staff of the Science Committee that China is not part 
of WTO and therefore--the procurement agreement, and therefore 
it wouldn't apply.
    But just let me say this in summing up everything. I must 
admire the skill of the gentleman from Illinois' presentation. 
I agree with the rhetoric, but not the reasoning. The rhetoric 
is something we can all identify with. We are all anxious to do 
as much as we can to protect American jobs. That is the desire 
of every single Member of this panel, no matter where he or she 
may sit.
    But it is also the intent of this committee not to go 
forward with anything that would be in violation of existing 
commitments of the United States of America. And the Costello 
Amendment violates the WTO procurement agreement on its face, 
according to the Congressional Research Service, a highly-
regarded operation, CRS, non-partisan. We need my language, 
because the Costello language goes further in contradicting 
trade agreements than past ``buy American'' language does.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Boehlert. So with that, the vote will be on----
    Mr. Gordon. Mr. Chairman.
    Chairman Boehlert. Yes.
    Mr. Gordon. I know we have got to finish this thing up, and 
I will try to be quick.
    Once again, we can't pass legislation here that is going to 
be in violation of an international treaty, so we can all, you 
know, go home comfortable about that tonight.
    Let me tell you how it really can make a difference. I 
had--I have got--the school in my hometown is called Middle 
Tennessee State University, and they have got a very good 
dyslexia center there. And they have done some work on treating 
dyslexia and treating--and also with distant learning in trying 
to help teachers around the state learn how to treat people 
with dyslexia. So I was persuasive and had $1 million put in 
the Defense budget for--so we could do the same sort of thing 
with our military schools around the Nation--around the world 
to try to help--you know, teach those teachers how to deal with 
dyslexic students. And what wound up happening--and 
parochially, I will admit, my university was a good one, and so 
I was thinking they were going to get this bid. But instead, 
what happened, it--there was a little company in New Jersey 
that had a front there who got the bid and then shipped 
everything to India to be done.
    And I think this amendment would have given the Defense 
Department or NOAA or someone else the ability, you know, to 
take that back. And so I mean, I think this is the kind of--the 
real war, it is really where are you going to put the burden of 
proof. And I think that is what Mr. Costello does is puts the 
burden of proof on keeping the jobs here.
    Chairman Boehlert. Thank you very much for reminding me of 
the outstanding work being done at Middle Tennessee State 
University.
    And let me, on behalf of all of us, congratulate you on 
your ability to get $1 million earmark in the DOD bill. We are 
all wondering how you achieved that.
    But I would point out that the procurement agreement allows 
for exceptions for Defense.
    And so with that, I think we have pretty much exhausted it.
    The vote is on the amendment to the amendment. If--all in 
favor, say aye. Opposed, no. The ayes appear to have it.
    Mr. Costello. Mr. Chairman, I would ask for a recorded 
vote.
    Chairman Boehlert. Mr. Costello asks for a recorded vote. 
The Clerk will call the roll.
    Ms. Tessieri. Mr. Boehlert.
    Chairman Boehlert. Aye.
    Ms. Tessieri. Mr. Boehlert votes yes.
    Mr. Hall.
    Mr. Hall. Aye.
    Ms. Tessieri. Mr. Hall votes yes.
    Mr. Smith.
    [No response.]
    Ms. Tessieri. Mr. Weldon.
    [No response.]
    Ms. Tessieri. Mr. Rohrabacher.
    Mr. Rohrabacher. No.
    Ms. Tessieri. Mr. Rohrabacher votes no.
    Mr. Calvert.
    Mr. Calvert. Aye.
    Ms. Tessieri. Mr. Calvert votes yes.
    Mr. Bartlett.
    Mr. Bartlett. Aye.
    Ms. Tessieri. Mr. Bartlett votes yes.
    Mr. Ehlers.
    Mr. Ehlers. Yes.
    Ms. Tessieri. Mr. Ehlers votes yes.
    Mr. Gutknecht.
    Mr. Gutknecht. Yes.
    Ms. Tessieri. Mr. Gutknecht votes yes.
    Mr. Lucas.
    Mr. Lucas. Yes.
    Ms. Tessieri. Mr. Lucas votes yes.
    Mrs. Biggert.
    Ms. Biggert. Yes.
    Ms. Tessieri. Mrs. Biggert votes yes.
    Mr. Gilchrest.
    Mr. Gilchrest. Aye.
    Ms. Tessieri. Mr. Gilchrest votes yes.
    Mr. Akin.
    Mr. Akin. Aye.
    Ms. Tessieri. Mr. Akin votes yes.
    Mr. Johnson.
    [No response.]
    Ms. Tessieri. Mr. Forbes.
    [No response.]
    Ms. Tessieri. Mr. Bonner.
    Mr. Bonner. Aye.
    Ms. Tessieri. Mr. Bonner votes yes.
    Mr. Feeney.
    Mr. Feeney. Aye.
    Ms. Tessieri. Mr. Feeney votes yes.
    Mr. Inglis.
    Mr. Inglis. Aye.
    Ms. Tessieri. Mr. Inglis votes yes.
    Mr. Reichert.
    Mr. Reichert. Yes.
    Ms. Tessieri. Mr. Reichert votes yes.
    Mr. Sodrel.
    Mr. Sodrel. Aye.
    Ms. Tessieri. Mr. Sodrel votes yes.
    Mr. Schwarz.
    Mr. Schwarz. Aye.
    Ms. Tessieri. Mr. Schwarz votes yes.
    Mr. McCaul.
    Mr. McCaul. Aye.
    Ms. Tessieri. Mr. McCaul votes yes.
    Mr. Gordon.
    Mr. Gordon. No.
    Ms. Tessieri. Mr. Gordon votes no.
    Mr. Costello.
    Mr. Costello. No.
    Ms. Tessieri. Mr. Costello votes no.
    Ms. Johnson.
    Ms. Johnson of Texas. No.
    Ms. Tessieri. Ms. Johnson votes no.
    Ms. Woolsey.
    Ms. Woolsey. No.
    Ms. Tessieri. Ms. Woolsey votes no.
    Ms. Hooley.
    Ms. Hooley. No.
    Ms. Tessieri. Ms. Hooley votes no.
    Mr. Udall.
    Mr. Udall. No.
    Ms. Tessieri. Mr. Udall votes no.
    Mr. Wu.
    Mr. Wu. No.
    Ms. Tessieri. Mr. Wu votes no.
    Mr. Honda.
    [No response.]
    Ms. Tessieri. Mr. Miller.
    Mr. Miller. No.
    Ms. Tessieri. Mr. Miller votes no.
    Mr. Davis.
    [No response.]
    Ms. Tessieri. Mr. Carnahan.
    Mr. Carnahan. No.
    Ms. Tessieri. Mr. Carnahan votes no.
    Mr. Lipinski.
    Mr. Lipinski. No.
    Ms. Tessieri. Mr. Lipinski votes no.
    Ms. Jackson Lee.
    Ms. Jackson Lee. No.
    Ms. Tessieri. Ms. Jackson Lee votes no.
    Mr. Sherman.
    Mr. Sherman. No.
    Ms. Tessieri. Mr. Sherman votes no.
    Mr. Baird.
    [No response.]
    Ms. Tessieri. Mr. Matheson.
    Mr. Matheson. No.
    Ms. Tessieri. Mr. Matheson votes no.
    Mr. Costa.
    Mr. Costa. No.
    Ms. Tessieri. Mr. Costa votes no.
    Mr. Green.
    Mr. Green. No.
    Ms. Tessieri. Mr. Green votes no.
    Mr. Melancon.
    Mr. Melancon. No.
    Ms. Tessieri. Mr. Melancon votes no.
    Mr. Chairman.
    Chairman Boehlert. Is there any other Member who seeks 
recognition?
    Mr. Hall. Mr. Chairman.
    Chairman Boehlert. Mr. Hall.
    Mr. Hall. I didn't really understand fully what Mr. Wu 
said. Like when you were speaking earlier, I couldn't hear you. 
You weren't talking loud enough for some of us older people, 
and I didn't understand Mr. Wu, and I would like to know what 
Mr. Wu said, and then I would also like to really know what he 
meant. And I would like to see it in writing. I would like to 
have time to have him----
    Chairman Boehlert. This is called a filibuster.
    Mr. Hall. That is what I was waiting to hear, Mr. Chairman.
    Chairman Boehlert. The Clerk will record.
    Ms. Tessieri. Mr. Chairman, yes, 18; no, 17.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Boehlert. The amendment is passed, and the vote is 
on the amendment, as amended. All in favor, say aye. Opposed, 
no. The ayes have it. The amendment, as amended, is passed.
    Are there any other amendments to the amendment in the 
nature of a substitute? If not, the vote occurs on the 
amendment in the nature of a substitute, as amended. All in 
favor, say aye. Those opposed, say no. The ayes have it, and 
the amendment is agreed to.
    Are there any other amendments? Hearing none, the vote is 
on the bill H.R. 50, National Oceanic and Atmospheric 
Administration Act, as amended. All of those in favor will say 
aye. Opposed, no. In the opinion of the Chair, the ayes have 
it.
    I recognize Dr. Ehlers to offer a motion.
    Mr. Ehlers. Mr. Chairman, I move that the Committee 
favorably report H.R. 50, as amended, to the House with the 
recommendation that the bill, as amended, do pass. Furthermore, 
I move that staff be instructed to prepare the legislative 
report and make necessary technical and conforming changes and 
that the Chairman take all necessary steps to bring the bill 
before the House for consideration.
    Chairman Boehlert. The question is on the motion to report 
the bill, as amended, favorably. Those in favor of the motion 
will signify by saying aye. Opposed, no. The ayes have it, and 
the bill is favorably reported.
    Without objection, the motion to reconsider is laid upon 
the table.
    I move that Members have two subsequent calendar days in 
which to submit supplemental, minority, or additional views on 
the measure. I would move pursuant to Clause 1 of Rule 22 of 
the Rules of the House of Representatives that the Committee 
authorizes the Chairman to offer such motions as may be 
necessary in the House to adopt and pass H.R. 50, National 
Oceanic and Atmospheric Administration Act, as amended. Without 
objection, so ordered.
    I want to thank everybody for participating and for your 
attendance and indulgence.
    This concludes our Committee markup.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]

                               Appendix:

                              ----------                              


 Subcommittee on Environment, Technology, and Standards Markup of H.R. 
50 Memorandum; H.R. 50, as amended; Section-by-Section Analysis of H.R. 
   50, as amended; Amendment Roster; Section-by-Section Analysis of 
                          Manager's Amendment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Section-by-Section Analysis of H.R. 50,
    National Oceanic and Atmospheric Administration Act, as amended

Section 1. Short Title.

    ``National Oceanic and Atmospheric Administration Act.''

Section 2. Definitions.

    Defines terms used in the Act.

Section 3. National Oceanic and Atmospheric Administration.

    Establishes the National Oceanic and Atmospheric Administration 
(NOAA) within the Department of Commerce and describes the mission and 
functions of NOAA.

Section 4. Administration Leadership.

    Describes the leadership structure of NOAA, including a new 
position of a Deputy Assistant Secretary for Science, Technology, 
Education and Outreach, who shall be responsible for coordinating and 
managing all research activities across the agency, and must be a 
career position. Also, this section designates the Deputy Under 
Secretary for Oceans and Atmosphere as the Chief Operating Officer of 
the Administration, responsible for the day-to-day aspects of the 
Administration's operations and management.

Section 5. National Weather Service.

    Directs the Secretary of Commerce to maintain a National Weather 
Service within NOAA.

Section 6. Operations and Services.

    Directs the Secretary to maintain programs within NOAA to support 
operational and service functions. These functions would include all 
the activities of NOAA's National Environmental Satellite Data and 
Information Service (NESDIS) and the mapping and charting activities of 
the National Ocean Service.

Section 7. Research and Education.

    Directs the Secretary to maintain programs within NOAA to conduct 
and support research and education functions.

Section 8. Science Advisory Board.

    Establishes a Science Advisory Board for NOAA, which would provide 
scientific advice to the Administrator and to Congress on issues 
affecting NOAA.

Section 9. Reports.

    Requires two reports from the Secretary. Each report is to be 
delivered to Congress within 18 months of the date of enactment of the 
Act. One report should assess the adequacy of the environmental data 
and information systems of NOAA and provide a strategic plan to address 
any deficiencies in those systems. The other report must provide a 
strategic plan for research at NOAA. The National Academy of Sciences 
(NAS) shall review each report prior to delivery to Congress.

Section 10. Effect of Reorganization Plan.

    Repeals the Executive Order that established NOAA in 1970.

Section 11. Savings Provision.

    Provides that all rules and regulations, and other technical legal 
topics that were previously assigned to the Administration, remain in 
effect under this Act.

Section 12. Transition.

    Makes the effective date of the Act two years after the date of 
enactment and requires NOAA to reorganize around the themes outlined in 
sections five through seven.

Section 13. Facility Evaluation Process.

    Provides that NOAA cannot expend funds to close or transfer a 
facility without a 60-day public comment period, 90 days notification 
to Congress, review by the Science Advisory Board (if appropriate), 
preparation of anticipated costs and savings, and preparation of a 
statement of the impacts of the facility change on NOAA and its part.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Section-by-Section Analysis of Manager's Amendment to
      H.R. 50, National Oceanic and Atmospheric Administration Act

Section 1. Short Title.

    ``National Oceanic and Atmospheric Administration Act"

Section 2. Definitions.

    Defines terms used in the Act.

Section 3.  National Oceanic and Atmospheric Administration.

    Establishes the National Oceanic and Atmospheric Administration 
(NOAA) within the Department of Commerce and describes the mission and 
functions of NOAA.

Section 4. Administration Leadership.

    Describes the leadership structure of NOAA, including a new 
position of a Deputy Assistant Secretary for Science, Technology, 
Education and Outreach, who shall be responsible for coordinating and 
managing all research activities across the agency, and which must be a 
career position. Also, this section designates the Deputy Under 
Secretary for Oceans and Atmosphere as the Chief Operating Officer of 
the Administration, responsible for the day-to-day aspects of the 
Administration's operations and management.

Section 5. National Weather Service.

    Directs the Secretary of Commerce to maintain the National Weather 
Service within NOAA.

Section 6. Operations and Services.

    Directs the Secretary to maintain programs within NOAA to support 
operational and service functions. This section does not name any 
organizational units of NOAA, but the functions listed include all the 
activities of NOAA's National Environmental Satellite Data and 
Information Service (NESDIS) and the mapping and charting activities of 
the National Ocean Service.

Section 7. Research and Education.

    Directs the Secretary to maintain programs within NOAA to conduct 
and support research and education functions.

Section 8. Science Advisory Board.

    Establishes a Science Advisory Board for NOAA, which would provide 
scientific advice to the Administrator and to Congress on issues 
affecting NOAA.

Section 9. Reports.

    Requires two reports from the Secretary. Each report is to be 
delivered to Congress within 18 months of the date of enactment of the 
Act. One report, by the National Academy of Sciences should assess the 
adequacy of the environmental data and information systems of NOAA and 
provide a strategic plan to address any deficiencies in those systems. 
The other report is strategic plan for research at NOAA.

Section 10. Public-Private Partnerships.

    Requires NOAA to review its policy on public-private partnerships 
once every five years. Clarifies the no changes in NOAA's current 
policy are required.

Section 11. Effect of Reorganization Plan.

    Repeals the Executive Order that established NOAA in 1970.

Section 12. Savings Provision.

    Provides that the Act does not change the legal status of any NOAA 
rule, regulation or other legal matter.

Section 13. Reorganization Plan.

    Requires NOAA to submit a reorganization plan to Congress not less 
than 18 months after enactment of this Act.

Section 14. Facility Evaluation Process.

    Provides that NOAA cannot expend funds to close or transfer certain 
facilities without a public comment period, review by the Science 
Advisory Board (if appropriate), analysis of anticipated costs and 
savings and impact on NOAA services, and notification to Congress.

Section 15. Budget Reprogramming.

    Requires NOAA to submit to the Science Committee a copy of any 
reprogramming requests submitted to Appropriations Committees.

Section 16. Satellite Notification.

    Requires NOAA to notify Congress when NOAA starts new satellite 
programs, encounters serious problems with, or makes major changes to 
existing satellite programs.

                                   

</pre></body></html>
